KANNON K. SHANMUGAM
TELEPHONE (202) 223-7325
FACSIMILE (202) 204-7397
E-MAIL: kshanmugam@paulweiss.com

January 14, 2021

BY FIRST-CLASS MAIL AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Goldman Sachs Group, Inc., et al. v. Arkansas Teacher Retirement
System, et al., No. 20-222

Dear Mr. Harris:
I represent petitioners in the above-captioned matter. I am writing to inform
you that petitioners consent to the filing of any and all briefs of amici curiae, whether
in support of either or neither party. Should you need any additional information,
please do not hesitate to let me know.
Yours sincerely,

Kannon K. Shanmugam

cc:

Thomas C. Goldstein, Esq. (by electronic mail)

